SEC.gov |  Philadelphia District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Philadelphia District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
PHILADELPHIA DISTRICT OFFICE
Audit No. 366
January 24, 2003
Limited Audit of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and administrative controls of the Philadelphia District Office (PDO).  The audit procedures were limited to interviewing PDO staff, reviewing supporting documentation, and conducting limited tests of transactions.  The purpose of the audit was to provide the Commission with negative assurance that the internal controls were adequate, implemented economically and efficiently, and in compliance with Commission policies and procedures.1  The audit was performed in accordance with generally accepted government auditing standards during October and November 2002.
BACKGROUND
The Philadelphia District Office assists the Northeast Regional Office in administering Commission programs.  In carrying out its responsibilities, the PDO exercises a broad range of financial and administrative functions, including maintaining time and attendance records; procuring supplies and services; arranging for staff travel; maintaining an inventory of property; and recording budgeted and actual expenditures of the office.
AUDIT RESULTS
During our limited audit, we identified one material issue.  PDO needs to issue an enhanced emergency plan, as described below.  In addition, the Office of Administrative and Personnel Management needs to provide updated guidance on emergency plans to field offices. Otherwise, our limited review indicated that the PDO's controls were generally adequate, implemented economically and efficiently, and in compliance with Commission policies and procedures.  We discussed some non-material findings and informal recommendations with PDO's management.
EMERGENCY PLANS On October 30, 2001, PDO issued a draft of updated emergency procedures for its staff in the event of a disaster.  The update covered office security, emergency notification, and employee tracking.  However, it did not identify key employees, describe their duties, or provide for training them.  The draft procedures have not yet been finalized. The property management office of PDO's leased facilities recommends that tenants have an emergency response team, including a fire marshal and monitors who are responsible for the exits, stairwells, and staging.   Current Commission guidance on emergency plans (SECR 12-1, dated December 1, 1981) is outdated.  For example, the Commission now has independent leasing authority, and thus has additional responsibility for building security and employee safety.  Also, the current guidance does not describe in detail what an emergency plan should cover. 2 Recommendation A PDO should enhance and finalize its emergency plan, as described above.  The plan should comply with guidance from the Commission and PDO's property management office. Recommendation B OAPM should update regulation SECR 12-1 to include detailed guidance on the contents of emergency plans.
1  Negative assurance means that no material internal control weaknesses came to our attention during our limited audit.
2  Each field office is responsible for developing an emergency plan for its facility.  The Office of Administrative and Personnel Management and the Office of the Executive Director are coordinating development of a continuity of operations plan for headquarters and the Operations Center.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us